               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




         Contract Management Data –
       Transportation Contract Support
                   System

                       Audit Report




                                              August 9, 2012


Report Number CA-AR-12-005
                                                                          August 9, 2012

                                                        Contract Management Data –
                                             Transportation Contract Support System

                                                         Report Number CA-AR-12-005




BACKGROUND:
The U.S. Postal Service uses the              COs did not ensure that contracts
Transportation Contract Support System        valued at about $48 million had
(TCSS) to manage transportation               appropriate funding approval
contracts and related activities. As of       documentation prior to contract signing.
December 1, 2011, TCSS contained              Of the 196 randomly selected contracts
16,993 highway contract routes (HCRs),        we reviewed, 184 (93.9 percent) did not
valued at about $2.8 billion. The audit       have proper funding approval
objectives were to assess the integrity of    documentation prior to entering into the
data in TCSS to support the contract          contractual commitments. Without prior
administration process and determine          funding approval, the Postal Service
whether contract funding was properly         might not have the funds necessary to
approved prior to entering into               pay its obligations. Proper authorization
contractual agreements.                       to fund contracts also aids in complying
                                              with Sarbanes-Oxley requirements and
WHAT THE OIG FOUND:                           overall controls over Postal Service
TCSS contained accurate data for all of       purchases to prevent fraud.
the HCRs we reviewed. Because of the
high accuracy rate from our sample, we        However, in response to a prior audit
determined TCSS data is sufficiently          report, Postal Service officials have
accurate to support the transportation        recently implemented policy changes
contract administration process. In fact,     that should prevent this from happening
we found several best practices that can      in the future. We noted that nine of the
be used to better ensure data validity in     11 more recent contract actions did
other systems maintaining contract            have the required prior funding
management data. For example,                 approval. Management also provided
contract specialists use a checklist and      other documentation they have used to
data verification form to help ensure that    track the contract funding process.
adequate supporting documentation is
maintained and that data is entered           WHAT THE OIG RECOMMENDED:
correctly in TCSS.                            Because of the implementation of our
                                              prior recommendation regarding
Our audit determined that contracting         contract funding approvals, we are not
officers (CO) signed HCRs without             making a recommendation.
obtaining the necessary funding
approval. Specifically, Postal Service        Link to review the entire report
August 9, 2012

MEMORANDUM FOR:           SUSAN M. BROWNELL
                          VICE PRESIDENT, SUPPLY MANAGEMENT


                                  E-Signed by Michael A. Magalski
                                  VERIFY authenticity with e-Sign


FROM:                     Michael A. Magalski
                          Deputy Assistant Inspector General
                           for Support Operations

SUBJECT:                  Audit Report – Contract Management Data –
                          Transportation Contract Support System
                          (Report Number CA-AR-12-005)

This report presents the results of our audit of Contract Management Data –
Transportation Contract Support System (Project Number 12YG014CA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judith Leonhardt, director,
Supply Management, or me at 703-248-2100.

Attachments

cc: Stephen J. Masse
    James D. Young
    Royale A. Ledbetter
    Douglas P. Glair
    Susan A. Witt
    Corporate Audit and Response Management
Contract Management Data – Transportation                                                                              CA-AR-12-005
 Contract Support System




                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Contract Data Integrity ........................................................................................................ 2

Contracting Actions without Proper Funding Approval ...................................................... 3

Management’s Comments .................................................................................................. 4

Evaluation of Management’s Comments ............................................................................ 4

Appendix A: Additional Information..................................................................................... 6

   Background ...................................................................................................................... 6

   Objectives, Scope, and Methodology ............................................................................. 6

   Prior Audit Coverage ....................................................................................................... 8

Appendix B: Management’s Comments ............................................................................. 9
Contract Management Data — Transportation                                                              CA-AR-12-005
 Contract Support System



Introduction

This report presents the results of our audit of Contract Management Data –
Transportation Contract Support System (TCSS) (Project Number 12YG014CA000).
Our audit objectives were to assess the integrity of data in TCSS to support the contract
administration process and determine whether contract funding was properly approved
prior to entering into contractual agreements. This self-initiated audit addresses
operational risk. See Appendix A for additional information about this audit.

TCSS contains data for highway contract routes (HCR), which are contracts with
independent suppliers to deliver mail to residents and other U.S. Postal Service
facilities. Supply Management Surface Transportation officials use information in TCSS
to manage HCRs. As of December 1, 2011, TCSS contained 16,993 active HCRs,
valued at approximately $2.8 billion. 1 It is important to ensure the Postal Service has the
capability to maintain accurate contract management data to support the contract
administration process.

Conclusion

TCSS contained accurate data for all of the HCRs we reviewed. Because of the high
accuracy rate from our sample, we determined that TCSS data is sufficiently accurate to
support the transportation contract administration process. In fact, we noted several
best practices that may be used to help ensure data integrity in other contracting
information systems. However, our audit found that contracting officers (CO) signed the
majority of HCRs without obtaining the required funding approval. Without prior funding
approval, the Postal Service might not have the funds necessary to pay its obligations.
Proper authorization to fund contracts also aids in complying with Sarbanes-Oxley
(SOX) requirements 2 and overall controls over Postal Service purchases to prevent
fraud. On February 21, 2012 (subsequent to our review period), the Postal Service
implemented corrective actions recommended in an earlier U.S. Postal Service Office of
Inspector General (OIG) audit report 3 that should resolve this problem for the future. We
did note that nine of the 11 sampled contracting actions occurring in November and
December 2011 did receive the necessary prior approval.




1
  The $2.8 billion value of HCRs represents annual spend amounts.
2
  According to SOX Cycle 02 Procurement, Process .209 Accounts Payable – Highway Transportation, as part of the
contract initiation process, Postal Service officials must determine whether funding is available prior to executing a
contract.
3
  Contract Funding Approval (Report Number CA-AR-11-005, dated August 24, 2011); see Appendix A – Prior Audit
Coverage for details of the report.
                                                             1
Contract Management Data – Transportation                                                           CA-AR-12-005
 Contract Support System

Contract Data Integrity

The Postal Service has done an excellent job in correctly entering critical contract data
into the TCSS system. We reviewed a random sample 4 of 196 active HCRs as of
December 1, 2011, and found that all of the contracts were recorded correctly in TCSS
(see Table 1 for details).

                                  Table 1. Data Verification Results

                                                              Number of
                             Number of Sample               Contracts With             Error
               TCMT5            Contracts                    Data Errors 6             Rate
              Southern              63                            0                     0.00%
              Northern              14                            0                     0.00%
              Western               28                            0                     0.00%
              Central               48                            0                     0.00%
              Eastern               43                            0                     0.00%
              Totals               196                            0                     0.00%
             Source: TCSS contract data as of December 1, 2011.


Because of the high accuracy rate from our sample, we determined TCSS data is
sufficiently accurate to support the transportation contract administration process.
Therefore, we will not make any recommendations related to data accuracy.

We identified the following best practices that contributed to the high data accuracy rate
in TCSS. If implemented for other contracting systems, these best practices could
strengthen data accuracy in those systems. We are providing these best practices to
the Postal Service for their consideration:

   Contract specialists (CS) use a checklist, which contains a list of the documentation
    needed in the contract file. They use this checklist to verify that all supporting
    documentation is maintained in the contract file and properly input into TCSS.

   CSs use a Data Verification Form, which is built into TCSS. This feature provides a
    system check of manual inputs and provides a warning or error notification if
    information entered is incorrect or questionable. This allows CSs to verify data and
    identify and correct any errors before the contract is ordered-in. 7

   New CSs are paired with an experienced CS, who provides them with on-the-job
    training. This helps the new CS understand the importance of entering accurate

4
  We performed a random attribute sample of TCSS contracts. As of December 1, 2011, the TCSS contained 16,993
contracts. We sampled 196 contracts to achieve a 95 percent confident level.
5
  Transportation Category Management Teams (TCMT) represent five different locations and are responsible for
soliciting and administering Highway Transportation Contracts nationwide.
6
  Either the data in TCSS was inaccurate when compared to supporting documentation or there was no
documentation to support the data in TCSS.
7
  “Ordering-In” a contract means to activate the contract and vendor in TCSS, establishing an executable contract.


                                                        2
Contract Management Data – Transportation                                                            CA-AR-12-005
 Contract Support System

    information into TCSS. For example, entering the correct SSN is very important
    because this information is essential for reporting income to the IRS. The CS also
    becomes more familiar with the contracting process and working with TCSS prior to
    working on their own.

   Separation of duties (TCSS will not allow the same person to input and approve a
    contracting action) precludes the person who orders-in an activity from starting or
    working on the same activity. This practice improves accuracy by mandating a
    second review by the person ordering-in the activity.

Contracting Actions without Proper Funding Approval

Postal Service COs did not ensure that contracts valued at about $48 million as of
December 1, 2011, had proper funding approval prior to contract signing. Specifically,
184 of 196 (93.9 percent) randomly selected contracts we reviewed did not have proper
funding approval documentation prior to entering into the contractual commitment (see
Table 2 for details).

                           Table 2. Contract Funding Approval Results

                                                                  Number of
                                                                  Contracts
                                 Number of Sample              Without Funding
               TCMT                 Contracts                     Approval                 Error Rate
             Southern                   63                            60                      95.24%
             Northern                   14                            13                      92.86%
             Western                    28                            28                     100.00%
             Central                    48                            40                      83.33%
             Eastern                    43                            43                     100.00%
             Totals                    196                           184                      93.88%
             Source: TCSS contract data as of December 1, 2011.


In December 2002, Deputy Postmaster General Patrick Donahoe 8 issued a
memorandum stating that, effective January 2003, all employees who have web access
must use eBuy 9 for all requisitions. He reiterated the same in a memorandum dated
December 19, 2007. Further policy denotes that a CO must ensure that sufficient
funding has been approved before making a contractual commitment or incurring
potential liabilities for the Postal Service. 10

For the sample contracts we reviewed, we noted that Supply Management officials
completed the procurement actions without having completed eSCR documentation.
This occurred because Postal Service officials did not make it a priority to comply with
8
  Mr. Donahoe is the current postmaster general.
9
  HCR funding approval is made through the electronic Service Change Request (eSCR) System, which has a review
process similar to eBuy’s, but also has necessary features that eBuy does not have, such as allowing users to update
route information.
10
   Supply Management Transportation Portfolio Administrative Instruction (SMTP-2005-001, dated April 7, 2005).



                                                         3
Contract Management Data – Transportation                                                       CA-AR-12-005
 Contract Support System

funding approval policies. We issued an audit report titled Contract Funding Approval
(Report Number CA-AR-11-005, dated August 24, 2011) that brought this issue to the
attention of the Postal Service. In response to our recommendations in that report, the
Postal Service began taking corrective action to remedy the situation.

On February 21, 2012, the Supply Management Transportation Portfolio and Network
Operations reached an agreement to address the funding approval process. According
to the agreement, all requests for HCRs are to be submitted through the eSCR system,
including requests for new contracts, contract renewals, and changes to existing
contracts. Requests without an estimated cost will be returned for funding authorization.
This action was taken in response to the prior audit of contract funding approval. 11 We
noted that nine of the 11 sampled contract actions occurring in November and
December 2011 did receive the necessary prior funding approval. Additionally,
management provided examples of spreadsheets they have used to track the funding
process for contract awards, changes, and renewals. As a result of the policy change,
we will not make any recommendations regarding funding approval in this audit.

Management’s Comments

Management agreed with our finding that all HCRs reviewed were recorded correctly in
TCSS to support the transportation contract administration process. However,
management disagreed with our finding that COs did not ensure that contracts valued at
about $48 million as of December 1, 2011, had proper funding approval prior to contract
signing. Management stated that, while the OIG was unable to obtain funding
documentation for each contract and the eSCR system was not used consistently at the
time, each distribution network office (DNO) had area-specific manual funding, tracking,
and approval processes in place for establishing and changing route requirements. For
headquarters contracts, HCR renewals were linked to a Surface Operations renewal
funding limit subject to further discussion and agreement. Management further stated
that these manual processes, though not standardized throughout the DNOs, provided
contracting personnel with approved funding documentation for the contract routes. See
Appendix B for management’s comments in their entirety.

Evaluation of Management’s Comments

Although the report does not contain any recommendations, the OIG considers
management’s comments responsive. In response to management’s comments
concerning proper funding approval, there may have been some non-standard manual
funding, tracking, and approval processes in place for HCRs. However, for the period
and HCRs audited, the contract files did not contain evidence of prior funding approval,
nor could the COs provide this documentation. Additionally, documentation
management provided at our exit conference did not have evidence of proper funding
approval for the HCRs reviewed. As we indicated in the report, the February 2012 policy


11
  Contract Funding Approval (Report Number, CA-AR-11-005, dated August 24, 2011); see the Prior Audit Coverage
section of this report for details.


                                                      4
Contract Management Data – Transportation                                    CA-AR-12-005
 Contract Support System

changes made in response to a prior OIG contract funding audit are sufficient to
address this finding.




                                            5
Contract Management Data – Transportation                                                                CA-AR-12-005
 Contract Support System

                                  Appendix A: Additional Information

Background

The Postal Service is exempt from the Federal Funding Accountability and
Transparency Act of 2006; therefore, it is not required to use the Federal Procurement
Data System to post contract action data. However, the Postal Service uses the
Enterprise Data Warehouse (EDW) as its entity-wide repository to provide internal
transparency in managing contracts and spend data. According to Supply Principles
and Practices (SP&Ps), 12 certain contract actions are required to be publicized in the
government-wide point of entry 13 for external transparency. In addition, newspapers,
trade journals, and magazines may publish contract awards.

Postal Service COs primarily use three systems for contract data collection and contract
management: the Contract Authoring and Management System, TCSS, and the
Electronic Facilities Management System. These systems capture general contract
management data and data specific to contracts in transportation and facilities. The
Postal Service developed each system to support the uniqueness of certain commodity
purchases. These systems feed required data elements directly to the Accounts
Payable Excellence14 system for payment certification.

TCSS is an Oracle Web-based application used to manage transportation contracts and
related activities. TCSS contains data for HCRs, which are contracts with independent
suppliers to deliver mail to residents and other Postal Service facilities. TCSS allows
contracting offices to solicit, award, and administer these contracts. TCSS interfaces
with the National Air and Surface System and the eSCR application for the transfer of
specific contract data needed to maintain contract schedules. In addition, contract data
from TCSS is transferred to EDW, which is a repository used to manage the Postal
Service's corporate data assets. As of December 1, 2011, TCSS contained 16,993
HCRs, with an annual value of approximately $2.8 billion.

Objectives, Scope, and Methodology

Our audit objectives were to assess the integrity of data in TCSS to support the contract
administration process and determine whether contract funding was properly approved
prior to entering into contractual agreements. To accomplish our objectives, we:

    Randomly selected a sample of 196 contracts from a universe of 16,993 active
     HCRs with an annual value of approximately $2.8 billion as of December 1, 2011.


12
   SP&P are intended to provide internal advice and guidance on approaches to performing supply chain
management (SCM) functions. They are intended for use by Postal Service professionals, as required and as
appropriate to perform their job functions, throughout the SCM lifecycle.
13
   Government-wide point-of-entry, specified by SP&P as Federal Business Opportunities, has been designed as a
single point-of-entry for federal buyers to publish and for vendors to find posted federal business opportunities across
departments and agencies.
14
   An automated accounting system for processing and reporting payments at the Postal Service.


                                                           6
Contract Management Data – Transportation                                    CA-AR-12-005
 Contract Support System



   Reviewed sample contracts at the five TCMT locations to determine whether critical
    contract data was properly entered into TCSS and whether contract funding
    approval was completed prior to entering into the contractual commitment. The data
    elements we verified were:

    o Contract amount (at time of most recent renewal).
    o Supplier name.
    o Supplier address.
    o Supplier SSN/employer identification number.
    o Performance start date.
    o Performance end date.
    o Vehicle type.
    o Number of vehicles.

   Reviewed policies and procedures related to TCSS and HCRs.

   If critical contract data was not properly entered into TCSS or contract funding
    approval was not completed prior to contractual commitment, we discussed issues
    with Postal Service officials to determine the reason.

   Held discussions with Supply Management transportation officials to determine best
    practices for properly entering contract data into TCSS.

We conducted this performance audit from January through August 2012 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on July 10, 2012, and included their
comments where appropriate.

We assessed the reliability of TCSS contract data by reviewing and verifying the system
data to the administrative contract files. We determined that the data were sufficiently
reliable for the purposes of this report.




                                            7
    Contract Management Data – Transportation                                         CA-AR-12-005
     Contract Support System

    Prior Audit Coverage

                                     Final
                   Report           Report        Monetary
Report Title      Number             Date          Impact                 Report Results
Contract        CA-AR-11-         8/24/2011     $601,388,219    Postal Service officials did not
Funding         005                                             submit eBuy requisitions for 16 of
Approval                                                        143 (11 percent) randomly
                                                                selected contracting actions,
                                                                totaling more than $600 million.
                                                                We recommended management
                                                                require eBuy requisitions for
                                                                funding approval for transportation
                                                                contracts within the Contracting
                                                                Authoring Management System
                                                                (CAMS) prior to contractual
                                                                commitments and establish an
                                                                agreement to ensure an approved
                                                                eBuy requisition for surface
                                                                transportation contracts is
                                                                obtained. Management agreed
                                                                with the findings,
                                                                recommendations, and monetary
                                                                impact.
Contract        CA-AR-11-         4/27/2011        None        Postal Service officials did not
Management      002                                            adequately collect and maintain
Data                                                           contract data in CAMS and should
                                                               create policies to ensure data
                                                               integrity. We recommended
                                                               management modify CAMS to
                                                               adequately capture contract data;
                                                               develop guidance to define CAMS
                                                               data elements; develop mandatory
                                                               training for all employees with
                                                               CAMS access; develop processes,
                                                               policies, and procedures to ensure
                                                               validity and completeness of
                                                               contract data; and define
                                                               employees’ roles and
                                                               responsibilities for data quality.
                                                               Management agreed with all of the
                                                               recommendations.




                                                   8
Contract Management Data – Transportation                     CA-AR-12-005
 Contract Support System

                          Appendix B: Management’s Comments




                                            9
Contract Management Data – Transportation        CA-AR-12-005
 Contract Support System




                                            10
